    I
        Department of Health and Human Services

               OFFICE OF

          INSPECTOR GENERAL





           THE RYAN WHITE              CARE ACT:

           EXAMPLES OF LOCAL COORDINATION




                ~-~’      -<*




                       $
               $                JUNE GIBBS BROWN
               u                Inspector General
               %
               %
                %++,
                                     JUNE   1995
                    3
                  ‘*dNa
                                   OEI-05-93-00335

                                                     I

.
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing sefices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of William C. Moran, Regional Inspector
General, and Natalie Coen, Deputy Regional Inspector General, Office of Evaluation and
Inspections, Region V. Participating in this project were:

REGION V                                                                          REGION II
Joseph L. Penkrot (Project Leader)
                                               Lucille Cop
Ellen R. Meara

Barbara Butz
                                                             HEADQUARTERS
William Moran
                                                               Alan S. Levine

For a copy of this report, please call (312) 353-4124.

Department of Health and Human Services

       OFFICE OF
  INSPECTOR GENERAL




  THE RYAN WHITE      CARE ACT:

   EXAMPLES OF LOCAL COORDINATION
                        TABLE                              OF CONTENTS
                                                                                                                                                                                               PAGE



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


EXAMPLES           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


  .seattle, Washington. . .           ..   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . ...6

  .New Orleans, buisiana              ..   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . ...9

  .NewyOrk, NewyOrk.                  ..   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . ..12

  .Kansas C@,MissOuri . .             ..   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...17

  .Loshgeles,ca lifornia              ..   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...21

  �Broward County, Florida             .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . ..24

  .DetrOit, Michigan . . . . .        ..   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...27

                                      INTRODUCTION

PURPOSE

To describe a variety of experiences                    of Ryan White grantees in coordinating                        client
services between providers.

ReauthorizationStudies

In this current report, we supplement previously acquired data with obsemations and
discussionsat the local level. These included ourattending planning council and
committee meetings; visiting local project sites and providers; holding discussions with
grantee administrators, project staff, providers, and persons with HIV/AIDS; and
reviewing funding and service plans, and progress reports.

The study complements our report, Local Implementation hues, 0EI-05-93-O0336.
These two studies are part of a series of studies that examine the Ryan White
program prior to its first reauthorization, currently pending before Congress. The
previous Ryan White CARE Act (the Act) reports are: Funding Formulas (OEI-05-
93-00330); FY 1992 Title 1 and Title II Expenditures (OEI-05-93-0033 1); Consoti”a
Activities (OEI-05-93-00333); FY 1992 Special Projects of National Significance -
Expenditures by Service (OEI-05-93-00332); and, Technical Report of 1992 Expenditures
(OEI-05-93-00334).


BACKGROUND

The Act requires that each community receiving Ryan White Title I funds as an
Eligible Metropolitan Area (EMA) form a network to discuss community needs and
act together to meet those needs. These new networks consist of State and local
governments, health care providers, advocacy groups, and persons with HIV/AIDS.l
The networks convene a planning council, conduct a community’s needs assessment,
and determine who will be funded.

The Act is multifaceted, with four titles directing resources to various entities and
allowing grantees maximum flexibility in the use of funds, particularly at the local level.
Title I provides emergency relief grants to EMAs disproportionately affected by the
HIV epidemic. Title II provides grants to States and territories to improve the quality,
availability and organization of health care and support services for individuals and
families with HIV disease. Title III(b) supports early intervention services on an out-



    1 Since the @an White Act enables grantees to deliver a wide range of services to people diagnosed with either HIV or AIDS, this
report uses the krnt “HIV/AID.Y to refm to either or both groups of Ryan White clienti.



                                                                  1

patient basis, including counseling, testing, referrals, clinical and diagnostic services,
and other therapeutic services. Title IV aims to improve the system of services for
children, youth, women and families infected with or affected by HIV/AIDS.

The Health Resources and Services Administration (HRSA) considers coordination of
services to clients and coordination between Ryan White titles and programs to be
important. In their application for Ryan White funds, EMAs must describe to HRSA
how their network will coordinate to provide semices to clients. In December 1994,
HRSA convened a working session for some program participants responsible for daily
front-line coordination between Ryan White programs. This session stressed best
practices in local coordination efforts, approaches to overcoming barriers to effective
program coordination, and invited advice on how HRSA could provide better support
to grantees on coordination efforts.


SCOPE AND METHODOLOGY

This report describes ways this coordination of services and coordination between
agencies occurs in seven EMAs and some of the new or enhanced services they now
provide. These EMAs received 43 percent of the 1994 Title I Ryan White funding.
We used data from the EMAs’ grant applications submitted to HRSA in describing
each EMA’s characteristics.

The EMAs have evolved in different ways at different speeds. Their approaches are
fashioned to meet their community’s needs within the political constructs available to
them. In each community, the involvement and roles of State, county and city
government are different.

We limited our study to seven metropolitan areas where the Ryan White programs
have attacked their community’s problems in distinct ways, and at different speeds.
We used four criteria to select sites. First, we chose sites based on their length of
time as an Eligible Metropolitan Area (EMA). Three of our sites, New York, Los
Angeles, and Fort Lauderdale, were among the original 16. Three other sites we
chose, Seattle, Detroit, and New Orleans, were in the 1993 group of nine cities to
become EMAs. We chose Kansas City from the latest of nine cities to become
eligible. Second, we considered whether or not the Title II consortium also serves as
the Title I planning council. At the time of our field work, this was the case in Los
Angeles, Seattle, Detroit, and Kansas City. New Orleans has since combined the
Titles I and II planning councils. Third, we looked for cities that represent a variety of
approaches to coordinating programs and services. Fourth, we favored communities
that would give us a geographically diverse sample. Field work was conducted in
summer 1994.

Not all barriers to providing coordinated services have been overcome in these
communities. Coordination is still evolving in these EMAs and others across the
country. In addition, much coordination takes place between providers on an informal


                                              2€
and frequent basis. Because new ways to coordinate services are still being developed,
this report does not represent a comprehensive description of all ways that promote
service coordination. Nor does it address all operational and policy related questions
which were raised by respondents in discussions of this topic, such as the the awarding
of subcontracts, HRSA funding cycles, and conflicting program goals and definitions.


We conducted our review in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           3

                                     EXAMPLES


Coordination of Ryan White programs is effected by a network of concerned grantees,
government agencies, providers, advocates and persons with HIV/AIDS. Together,
these networks determine where the affected community’s needs lie and decide who is
best able to meet these needs,

The networks can be effective at coordinating programs designed to provide services
to clients. Those not on planning councils still can participate in informal provider
networks or serve on committees dealing with HIV/AIDS issues. The networks bring
together people who are concerned, knowledgeable, and influential to discuss and act
on these issues. These networks provide a good forum to discuss the nature and
extent of HIV/AIDS, how to provide services to those infected, and ideas on ways to
slow the spread of the disease.

We saw considerable evidence of the dynamics of these networks during our EMA
visits where we attended planning council, executive committee, subcommittee, and
other group meetings. Each EMA we visited presents different approaches in
coordinating Ryan White programs and services, and overcoming barriers to
coordination. For example:

In Seattle, Washington, the EMA pools Titles I and 11funds. The different titles are invisible to
providers and clients.

In New Orleans, LouisianA a merger of the Titles I and Title 11planning councils will end turmoil in
the EMA relating to responsibilities for delivering services.

In New Yorlq New York the EMA contracts out the Ryan White program to deal with the largest
concentration of HIV/AIDS cases in the country. The EMA must also deal with seven consortia
serving their clients.

The Kansas City, Missouri EMA operates in two States. This EMA also relies heavily on HIV/AIDS
clients to provide guidance to their operations.

In Los Angeles, Californ@ the EMA is linking 10 large providers in a case management network. This
linkage serves to reduce duplicate services and provide a more rational delivery of services to clients.

The BrowardCounty, Florida EMA is starting a county-wide case management network, linking all
providers of Ryan White services.

The Detroi~ Michigan EMA considers provider coordination important in determining Ryan White
funding. One-fourth of a provider’s application score relates to their coordination with other providers
of HIV/AIDS-related sewices.




                                                    4�
The Ryan White program also provides increased services to combat HIV/AIDS.€
Ryan White programs greatly help persons with HIV/AIDS by providing services they€
otherwise would not receive. Many clients have no medical insurance coverage,€
including Medicare and Medicaid, and rely on Ryan White services to meet their€
needs.€

While States and local communities have contributed substantial resources to fight this€
disease, Ryan White programs are responsible for many more, and new services being€
available to persons with HIV/AIDS. These are services that would not be available€
in that EMA without Ryan White funds.€




                                          5

               SEATTLE,                  WASHINGTON


SeattleEM4 Background

The Seattle EMA includes King, Snohomish, and Island Counties and represents 42
percent of the State’s population. King County, which includes the city of Seattle, is
geographically large. Its 2,134 square miles make it the 17th largest county in the
United States. Snohomish County also is over 2,000 square miles, while Island County
is 209 square miles.

The Seattle-King County Department of                 sEA1-H.E
                                                             EMA cHARA(n’ERIs-I’fa

Public Health is the Title I grantee and
                                                  9     EMA population is 2 million
is also the lead agency for the Title II
consortia. Title I responsibilities include       �     75% of the AIDS cases in Washington
providing services for HIV/AIDS                         State reside in the EMA
education, prevention, testing,                   �     Estimated HIV/AIDS infection is 11,750
counseling, and client care services. As
a consortium, they are responsible for            �     91$~0ofthe HIV/AIDS population lives in
consortium management, which includes                   King County

planning, coordinating, monitoring, and           �     85’%.of the infected population is white,
evaluating program activities. They also                8% is African-American, 4% is Hispanic,
maintain a centralized contracting and                  and the remainder is Native American or
                                                        Asian Ameriean
reporting system, and identify and seek
funds for consortium activities.                  �     Gay/hi-sexual males make up 78% of the
                                                        HIV/AIDS population
?%e SeattleEM4 PlanningCouncil
                                                  �     Gay/bisexual men who injected drugs
                                                        make up 11% of the population, while 5%
The HIV/AIDS Planning Council is a 32                   are heterosexual intravenous drug users
member body responsible for all
                                                  �   Women make up 4% of the infected
planning and allocation activities for care
                                                      population
services and prevention/education. It
has two co-chairs, one from the Seattle
King County Health Department and
one community member. Seattle’s model of care is based on a continuum of care
covering a range of 28 component services from nutrition to primary care. The
planning council uses special workgroups, task forces and committees extensively in
helping to decide EMA priorities.

Servicesto Clientx

The planning council describes two levels of HIV/AIDS in determining the needs and
service priorities of clients. The stages are: 1) those who are disabled-by HIV 2)
those who are HIV positive, but not disabled. The Seattle EMA commits at least 65
percent of its funds for services to clients who are disabled by HIV.


                                              6
The planning council identified 24 distinct client services as priorities for 1994. In
terms of funding commitments, case management, primary care, home health care,
housing, and early access are the five areas receiving the most EMA funds.

                                      New Selvices

The Seattle EMA is unique in its aggressive and coordinated approach to the housing
needs of its AIDS clients. Based on housing and residential care plans developed by
two AIDS service organizations (ASOS) and the Seattle-King County Department of
Health, the EMA developed two AIDS-specific care facilities offering skilled nursing
and assisted living.

Other new services available to HIV/AIDS clients include:

  �	      an arbiter’s office to assist persons with HIV/AIDS reach agreement with
          health insurance companies on coverage issues;

  �	      dental care, added to the semice components after clients indicated a need
          for these services; and,

  �	      a network of services exclusively for women with HIV, including primary
          care, case management and advocacy, day and respite care, information and
          referral, and emotional support.

AdrninktrativeCoordination

The Seattle EMA and Washington State have developed a planned approach to the
HIV/AIDS epidemic. The State is divided into six regional AIDS networks for
purposes of distributing HIV/AIDS related funding. King County makes up an AIDS
network, while the other two counties in the Seattle EMA are part of a separate AIDS
network. When Seattle became a Ryan White Title I grantee, they arranged with the
State to give Title I monies to a statewide pool of HIV/AIDS-related funds, which also
includes Title 11funds.

The State distributes these HIV/AIDS funds so that each AIDS network receives an
equal dollar amount for each reported living AIDS case. Because the Seattle EMA
has an estimated 75 percent of the AIDS cases in the State, the EMA receives 75
percent of the combined Title I and 11 dollars distributed by the State.

By pooling funds in this way, the State avoids some conflicts that might occur between
city and State governments, and between titles, over how to allocate funds. Because
there is no distinction within the EMA between Title I and 11funds, the Seattle EMA
planning council acts as the planning body for both Titles I and II. This arrangement
also benefits providers who need to fill out only one application for their funding and
meet only one set of reporting requirements for both Titles I and II.




                                            7

Another form of coordination in Seattle is the Case Management Residential Services
Workgroup. This Workgroup, which etiends beyond theplanning council and
providers, advocacy representatives, Title IIIb and State representatives, meets
monthly to try to resolve case management and other service related issues. The
workgroup discusses new services, new procedures, and other issues relevant to direct
service delivery or planning for service delivery. In addition, each month, some of the
major service providers in the area give updates about their waiting lists and service
issues needing resolution.

In 1992, when the Seattle area became eligible for Housing Opportunities for Persons
With AIDS (HOPWA) funding, the HOPWA grantee developed a 5 year housing plan
which takes into account both the Ryan White funded housing and the complementary
HOPWA funds. Although the planning council does not perform the planning
function for HOPW~ it must approve the HOPWA grantee’s housing plan.
Consequently, the HOPWA grantee and the EMA coordinate closely to fill in gaps in
housing services.

Seattle’s housing plan for people with HIV/AIDS provides a continuum of different
types of housing clients need at different stages in their illness including: emergency
housing, transitional housing, longer-term housing, assisted living, and skilled
nursing/residential hospice housing. The housing plan also addresses an emerging
issue in the Seattle area, housing for mentally ill and chemically addicted clients with
HIV/AIDS.

Client-levelcoordination

In Seattle, there are two agencies funded for case management services. These€
providers are responsible for case managing most of the EMA’s disabled AIDS clients.€
In Seattle, only disabled clients are eligible for Title I and II case management€
services. Some services for HIV/AIDS clients, like housing, are accessible only€
through a case manager. This limitation on clients permits case managers to maintain€
low caseloads and to serve only those clients with the most complex needs.€

In spite of only two providers being funded for case management, other Ryan White€
providers employ case managers or other workers who function like case managers.€
These case managers are funded through other funding streams. For example, one€
primary care clinic funded by Title IIIb, hired a case manager to follow up on clients€
and coordinate with any other case managers for that client.€

Despite a somewhat complex arrangement of case managers with vastly different€
duties, our respondents are not disturbed by the way case management works in€
Seattle. The caseloads in the Seattle EMA are still relatively small compared with€
some other cities, and case managers are comfortable having frequent contact with€
each other about common cases, problems and other case management related issues.€




                                            8

            NEW            ORLEANS,                        LOUISIANA


NZw OrleansEM% Background

Seven parishes (counties) comprise the New Orleans EMA - Orleans (which includes
New Orleans,) Jefferson, St. Bernard, Plaquemines, St. Tammany, St. Charles, and St.
John the Baptist.

The Office of Health policy and ~DS               ~
Funding, in the Mayor’s Division of                            EMA characteristics
                                                      NEwORLEANS

Human Resources is the Title I grantee.                �     EMA population is 1.2 million

In May 1994, the newly elected mayor€
moved this function from the                           �     Estimated HIV/AIDS population is 9,588.

Department of Health to the mayor’s                          Of these

office in order to address the problems                        b     80% live in Orleans parish

the EMA faces more quickly.                                    *     14$%live in Jefferson Parish

New Orleans is beset with many urban                   �Non-hispanic whites make up 60% of the
                                                        HIV/AIDS population; African-
problems, all of which are compounded                   Americans are more than a third of the
by widespread poverty. Over 30 percent                  total, with Latinos and others less than 4$%
of all those living in New Orleans live                 of the HIV/AIDS population
below the poverty level. In New
                                                       �90% of the infected are men; more than
Orleans, 46 percent of all children, and                2/3 of these are gay or hi-sexual
55 percent of African-American children€
live in poverty. One in five senior                    �One in ten of the HIV/AIDS population

                                                        are injection drug users

citizens lives in poverty. New Orleans
also faces widespread increases in            ~€
sexually transmitted diseases. Louisiana€
has the highest gonorrhea rates in the natiory the chlamydia rate is 25 percent higher€
than the rest of the country, and their syphilis rate leads the nation. New Orleans’€
syphilis rate is the highest in the State. The lack of safe sexual practices evidenced by€
these figures suggests that AIDS will become even more widespread among New€
Orleans’ young and poor.€

l%e Nm OrleansEM          PlanningCouncil

After a year or more of uncertainty, acrimony, considerable overlap of council
membership, and duplicative administrative activities, the Title I and Title II planning
councils merged in July 1994. The newly combined planning council administers Titles
I and II. The single planning council intends to eliminate duplication and
fragmentation and to perform coordinated strategic planning, needs assessment,
funding prioritization and evaluations. In addition, Titles IIIb and IV play an active
role in planning council deliberations and decisionmaking.



                                                9€
Sem”cesto Clienfi

In 1993, the New Orleans EMA received $3.2 million from Title I and $359,000 from
Title II. To provide appropriate services to clients, the EMA uses the continuum of
care defined by Louisiana with only minor revisions.2 Primary medical care for hard
to reach populations, case management, dental services, substance abuse treatment,
emergeney assistance, mental health, advocacy, drug reimbursement, housing related
senices, and buddy/companion services are the EMA’s Title I priorities for 1994.

                                                  Primarv Medical Care

Almost all primary medical care for low income HIV/AIDS clients is furnished at
Medical Center of Louisiana at New Orleans (formerly Charity Hospital, and still
commonly referred to by that name) and paid for by the State of Louisiana. Many of
the other EMA service providers are located near Charity Hospital and the medical
complex close by, or near the French Quarter where many of New Orleans’ AIDS
Service Organizations originated.

                                                   Communitv Services

Using Ryan White funds, three neighborhood-based, community health clinics are now
providing services to HIV/AIDS clients. The new emphasis on primary care
recognizes that locating services in other neighborhoods may serve to overcome either
transportation difficulties in reaching established services and/or the stigma of dealing
with providers perceived to be exclusively for gay, white, males. In addition, a city-
funded program is providing case management services targeting African-Americans
and Hispanics.

                                                        New Services

Among the other new services offered to clients since the EMA’s inception include:

   �	         case management and transportation services to geographically remote St.
              Tammany Parish, including delivery of food and medications to those too ill
              to travel;

   �           primary medical services to HIV/AIDS clients in St. Charles Parish;

   �           in concert with HOPW~                   housing for families affected by HIV/AIDS;

    �	         subcontracts to provide home health and other services in public housing
               developments and the surrounding neighborhoods; and,



    2 Louisiana defines five levek of care for HIV/AIDS patients beginning with prevention and early detection to ambulatory care for
those in the advanced s%agesof AIDS.



                                                                 10
  �	      neighborhood day care for HIV positive children and other affected family
          members.

Adrninktiative-hvel Coordination

The merging of the planning councils restores full Title II participation in providing
the panoply of continuum of care services to clients. The planning council is now
united in its goals and can devote their efforts to service delivery and coordinating
services to clients.

Prior to New Orleans becoming an EMA in 1993, United Services for AIDS
Foundation, the Title II Consortium for New Orleans, distributed monies to a range
of providers involved in the continuum of care for HIV/AIDS clients. When New
Orleans became an Em        the former mayor asked the United Services for AIDS
Foundation planning council to become the Title I planning council, but he later
withdrew the request.

About that same time,       the State of Louisiana considerably reduced the Title II funding
in New Orleans. As a        result, United Services for AIDS Foundation no longer funded
social service activities   in New Orleans and limited itself to legal advocacy and
emergency assistance.       Its role in the continuum of care was substantially diminished.

Title I assumed responsibility for services formerly paid by United Services for AIDS
Foundation. Despite political events and a lessened Title 11 presence, the EMA
delivered services to clients and made some new client services available.

Client-levelCoordination

Currently, little client-level coordination takes place in New Orleans. No common
case reporting or intake assessments are required by the EMA. Clients have multiple
case managers, and there is no forum to bring case managers from different providers
together to discuss cases, services available, or ways to overcome barriers to care. The
State of Louisiana provides training, guidelines and licensing for case managers. But
no EMA requirements for case managers presently exist. The EMA has consistently
supported the State’s case management requirements and will issue written guidelines
this year consistent with those policies.

In the future, changes may mitigate the current lack of client-level coordination.    The
EMA is beginning to implement a uniform reporting system that will allow
coordination on a client level between case managers and agencies.




                                               11€
                NEW          YORK,
 NEW                        YORK


New YorkEMA Background                                          NEw YORK EMA

                                                               cHARAcmRIsTIcs

The New York EMA includes New York                   �    EMA population is 8.5 million
City’s five boroughs and the Tri-County
Region north of the city, comprised of               �   New York City has 56,581 cumulative
                                                         AIDS cases, 17% of the national total
Westchester, Putnam and Rockland
Counties. New York City has about 96                 �   The New York EMA has 26% of the
percent of the EMA’s AIDS cases.                         cumulative AIDS cases reported for the
                                                         nation’s 34 EMAs
New York City faces myriad problems                  �   There are 17,000 people living with AIDS
that compound the fight against                          in New York City
HIV/AIDS. The city has large numbers
of infected individuals who may be
                                                     �   Estimated New York City HIV/AIDS
                                                         infection is 165,000; 1 person in 50 living
homeless, immigrants, tubercular,                        in New York City is HIV-infected
injection drug users, poor, mentally ill,
non-English speaking, or prisoners.                  �   Between 30% and 40% of the city’s
                                                         200,000 injection drug users are HIV-
                                                         infected
To address the epidemic in the New
York Em      HRSA awarded over                   �       52% of New York City’s AIDS cases are
$100,000,000 in Ryan White funds for                     associated with injection drug US%43’%o
                                                         with homosexual activity
1994. In addition, both New York City
and New York State provide substantial           �       18% of New York City’s AfDS cases are
funding for HIV/AIDS services.                           femaley 86% of these are either African-
                                                         American or Latina

 The New York City Department of                 �       AIDS is the third leading cause of death
Health is the Ryan White Title I                         in New York Ci~ in New York City,
 grantee. The Department of Health has                   AIDS is the leading cause of death for
                                                         those between the ages of 25 and 44
intergovernmental agreements with the
three suburban counties to administer            �       One of four of the nation’s pediatric
Title I funds. They also contract with                   AIDS cases is in New York City
the Medical and Health Research
                                                 �       Nearly 11,000 New York City children
Association of New York City, Inc                        have been orphaned by AIDS
(MHRA), a private, non-profit
organization, to administer the Title I          �       There are 7 Ryan White Tkle II consortia
                                                         serving New York City
program in New York City, and with the
Westchester County Department of                 �       The Tri-county area of the EMA has 11%
Health to administer the Title I program                 of the State’s population outside of New
in the Tri-county region.                                York Chy, but has 21$Z0of the State’s
                                                         reported ADS cases outside of New York
                                                         City
Through New York’s contract with
MH~     the EMA is able to bypass
some of the bureaucratic obsta~les in allocating grant funds quickly, and to avoid the


                                            12
pressures for downsizing that government agencies often face. Also, because MHRA
awards the funds, the EMA avoids some of the conflict of interest issues raised in
other communities. In other EMAs, planning councils are open to criticism when their
memberships are comprised of service providers making direct funding decisions.

The New York EM      Pluming Council

The New York EMA’s 45 member planning council serves at the invitation of the
Mayor, and is chaired by the Mayor’s Coordinator of AIDS Policy. Members serve 2
year terms. All boroughs and counties are represented on the planning council.
Representatives from Ryan White Titles 11 and III(b) also sit on the planning council.

At least 25 percent of the planning council are persons living with HIV/AIDS. In
addition, the planning council established an advisory group of persons with
HIV/AIDS to give advice to the planning council on issues before it. This 40 person
group is composed of both council members and non-members.

Besides this advisory group, three committees and five work groups assist the planning
council in its work. The committees are the executive committee, which seines as the
planning council’s steering committee, the nominations committee, and the planning
and evaluation committee. The work groups deal with issues relating to health,
substance abuse, mental health, housing, social services, and infrastructure, which
includes activities not directly related to client services.

Sew-cm to ClientS

New York State is unique in encouraging providers to treat HIV/AIDS patients by€
paying considerably higher Medicaid reimbursement for AIDS related services. The€
enhanced rates cover HIV/AIDS testing, primary care, chronic care, case management,€
long-term nursing home care, mental health semices, home care and rehabilitation,€
and respite care. In addition, hospitals meeting certain criteria can become€
Designated AIDS Centers to receive the highest AIDS-related reimbursement rates in€
New York.€

New York State’s enhanced reimbursement program allows New York to recruit more€
providers of HIV/AIDS related services and overcome the difficulties faced by other€
States in attracting more providers to treat HIV/AIDS patients. Each of the EMAs€
counties contributes to the State’s Medicaid fund which provides one-fourth of the€
funds available to the State for the enhanced provider payments.€

In their 1994 Supplemental Grant Application, the New York EMA identified five€
areas for semice initiatives. These priorities are in primary health care, substance€
abuse, mental health, housing and social services. In addition, the application€
identified a number of infrastructure development activities. These included personnel€
recruitment and retention in HIV/AIDS service agencies, support for mental health€
licensure, and establishing financial technical assistance to serve Title I contractors.€


                                           13€
                                     New Semites

Despite the volume and complexity of New York’s AIDS epidemic, the New York
EMA has taken advantage of Ryan White in an effort to address many of the unique
needs of New York City. The EMA has stitched Ryan White funding into the existing
complex patchwork of AIDS service that dwarfs those in other cities. The New York
EMA is involved in funding of more than 300 programs. Many of these programs are
jointly funded with other Federal, State, and New York City programs.

Among new programs in the New York EMA made possible by Ryan White funds
are:

  �	     orphan support services for children of people who have died of, or are
         dying of AIDS;

  �	     primary medical care and case management for those of Haitian descent
         who suffer from HIV/AIDS;

  �	     the “Air Bridge” between Puerto Rico and New York City. This program
         coordinates medical services and case management for H-IV/AIDS patients
         who travel to New York City primarily to receive medical treatment. Puerto
         Rico’s Medicaid program has a limitation on spending and very limited
         funding for HIV/AIDS care and drug treatments.

                           ProErams for Special Populations

Title I funds have allowed many programs treating special needs to be funded as well.
As one city official described, Ryan White funds afforded the opportunity to develop
programs targeting the many special needs of AIDS clients in New York that would
have no other funding source. In particular, many community-based organizations
treating injection drug users at varying stages of their recovery benefit greatly from
Ryan White Title I monies.

New York City is in various stages of planning and implementing special programs to
target populations with special needs. Many of these programs involve collaboration
between various Ryan White Titles. These programs include:

  �	     providing case management services and primary medical care to immigrants
         with HIV/AIDS;

  �	     a housing program providing housing, directly obsemed therapy, and
         individual supportive services for hospital patients identified with both
         tuberculosis and HIV/AIDS;

  �      serving clients triply diagnosed with mental illness, chemical addiction, and
         HIV/AIDS;€


                                           14€
  �      transitional residences providing temporary housing and comprehensive
         programs for homeless substance abusers with HIV/AIDS to help them
         make the transition from structured living situations to more independent
         living;

  �      providing recove~ readiness to HIV/AIDS clients who do not see drug
         recovery as their first priority. These clients often have much more
         immediate health needs, or other priorities like food and shelter. Recovery
         readiness programs recognize this, meet some of the other basic client needs,
         and work on behavior change strategies and other intervention with clients;

  �      harm reduction programs targeting HIV/AIDS clients who are injection drug
         users who cannot or will not use conventional drug treatment. Community-
         based organizations are funded for outreach, education, counseling, and
         referral for other drug treatment and medical sefices;

  �      relapse prevention programs furnishing ongoing help to HIV positive clients
         who are former drug users. These programs can involve case management,
         outreach, support groups, recreational activities, and other means to keep
         clients involved in a consistent routine, and to keep contact with them so
         that they do not relapse into drug use.

AdministrativeCoordination

The vast array of programs available to HIV/AIDS clients, the sizable contributions of
other funding agencies, and the types and scale of problems facing the New York
EN@ makes their coordination with other agencies imperative. To this end, the New
York EMA has direct and frequent interaction with New York City programs and also
through its contractor, MHRA. The MHRA also contracts with New York City as the
representative agency for its “Healthy Start/NYC” project, as well as other maternal
and child health, infectious disease control service, research and demonstration
projects.

Coordination and collaboration with Ryan White Title II occurs in several ways. The
AIDS Institute in New York State’s Department of Health is the Title II grantee and
oversees the Title 11 consortia. Meetings between the managers of Title I and Title II-
funded programs take place weekly at both the city and State levels. An AIDS
Institute representative is a voting member of the planning council and also serves on
the executive committee. Coordinators from many of the EMA’s consortia are
represented on the planning council’s work groups.

The Title I and Title II grantees jointly sponsor several programs that provide services
to uninsured and underinsured clients with HIV who are not yet eligible for Medicaid.
These programs include:




                                           15€
  c	      the AIDS Drug Assistance Program (ADAP), providing free drugs for the
          treatment of HIV and infections that may occur;

  �	      ADAP Plus, providing free primary medical care at enrolled clinics, hospitals
          and drug treatment centers; and,

  �	      the Home Care program delivering services to HIV clients in need of home
          care.

In addition to joint sponsorship of programs, Title I funds have also been awarded to
the AIDS Institute to administer eight contracts for delivery of primary care in
substance abuse treatment settings.

Titles I and 11 coordinate strategic planning of service delivery through their support
of the Health Systems Agency of New York City (HSA). The HSA provides analyses
to the EMA and State which facilitate their strategic planning for HIV-related
services.

Client-level coordination

Despite New York’s overwhelming numbers, mechanisms like the Title II AIDS
networks contribute to New York’s ability to administer some HIV/AIDS services on a
scale similar to those in smaller cities. There are 7 AIDS networks, or Title 11
consortia, covering the different boroughs and many of their neighborhoods. The
networks fill the role of organizing the smaller communities in a borough. Each
network meets at least quarterly, and its committees often meet monthly.

Each network is required to have a case management committee which allows
providers and case managers to discuss new semices, service needs, and other case
management issues. This also allows case managers to network with each other, and
to facilitate coordination between case managers who share clients.




                                           16

             KANSAS               CITY, MISSOURI


Kimsas City EiM4 Background

The Kansas City EMA is comprised of Jackson County, which includes the city of
Kansas City, Missouri, and Clay, Platte, Cass, Clinton, Lafayette Counties in Missouri,
and the Kansas counties of Johnson, Wyandotte, Miami and Leavenworth.

Kansas City became eligible for Title I
funding as an EMA in 1993. The                       KANSAS
                                                         CITYElm         cHARAcxEREmcs
Kansas City Health Department is the
                                                 �      EMA population is 1.6 million
Title I grantee and also dispenses
HOPWA funds. The Kansas City                     �      Estimated HIV/AIDS infection is 8,400
Health Department also serves as the
                                                 �      Most live in the Kansas City metropolitan
lead agency for Missouri Title II.                      area

A case management contract with the              �      72% of the infected population is white,
State of Kansas formalizes EMA                          2270 is African-American, 3% is Hispanic,
                                                        and the remainder is Native American,
participation by the four Kansas                        Asian American or no data is available on
counties.                                               heritage

                                                 �      Gay/bLsexual males make up 69% of the
The EMA includes urban, suburban and
                                                        HIV/AIDS population
rural communities, and they vary
markedly. For example, the median                �      6% are intravenous drug users, with
household income for Wyandotte County                   another 8% are combining male to male
                                                        sexual activity with injecting drug usage
is $23,780, barely half that of adjacent
Johnson County at $42,741. Five of the           �     Heterosexual transmission represents 4%
eleven EMA counties have at least 10                   of the HIV/AIDS cases
percent of households below the poverty
                                                 �     Women make up 7% of the EMA’s
level. Very few, about ten percent, of                 infected population and face the highest
the Missouri persons with HIV/AIDS                     risk of infection through heterosexual
have private insurance. More than 46                   transmission
percent have no insurance, while the
balance are Medicaid eligible.

The changing nature of the HIV/AIDS pandemic is reflected in the Rrowing number of
African-Americans being infected with HIV. African-Americans are-18 percent of the
population in the EMA, but are more than a third of those with HIV. In addition,
African-American women are 29 percent of the EMA’s female population, but are 56
percent of the HIV positive women in the EMA.




                                           17€
The ffinsas CityEMA PlanningCouncil

The steering committee for the Missouri Title II Ryan White Care Consortium, is also
the Title I planning council. The planning council is comprised of 20 voting members,
9 of whom are persons with HIV/AIDS. Planning council by-laws require all planning
council decisions be taken to the full Consortium for consensus. Only if consensus
cannot be reached from the fuIl Consortium, and after consideration at two
Consortium meetings, a steefing committee vote will be taken to resolve the issue.
This has occurred only one time.

The full Consortium has over 80 members including persons with HIV/AIDS,
providers, Title IIIb and both State agencies. Besides its Ryan White responsibilities,
the Consortium also sets priorities for HOPWA spending.

Sub-committees have a significant role in the EMA’s activities. Sixteen sub-
committees have been formed to identi~ barriers to service, review utilization of
existing services, and to recommend changes to the steering committee .3 Membership
on the sub-committees is open to all.

Ikrvkes to ClienLs

In 1993, the Kansas City EMA received $2.6 million from Title I, and $330,000 from
HOPWA. Primary care, case management, and medications are the EMA’s Title I
priorities for 1994. The priorities are determined by the annual needs assessment.
The needs assessment priority setting is based on a 60/40 split between the
consortium/steering committee and full Consortium recommendations. Sixty percent
of the priorities are decided by the consortium/steering committee, and the balance by
the full Consortium. Based on the needs assessment, Title I subcontractors provide
home health services, emergency assistance, food, transportation, mental health,
substance abuse counseling, advocacy, early intervention pre-case referrals, information
and referrals, buddy/companion/child care/adoption/foster care, and hearing impaired
semices.

                                                        New Services

New services funded by the EMA include case managers in Kansas, the addition of
rural primary care sites, dental services, and respite summer camps for children of
HIV/AIDS affected parents.




    3 l%e sub-committees are: (1) pnmay medical care, (2) case managenten~ (3) housing (4) transportatio~ foot+ and emergency
assistance, (5) substance abuse/mental healfi (6) bam”ersto carelcnminal justice systeq (7) minon’~ issues, (8) hospice, (9) foster
careladoptio~ (10) buddy ~stq (11) advocaqy (12) infomafi”on and refma~ (13) dental care, (14) early inkrventionlpre care
refma~ (15) home healfi and (16) volunteer.



                                                                18
                                 States’ Contributions

The States of Missouri and Kansas allocate Title II funds for services to clients in the
Kansas City EMA. Missouri provided $210,000 in client services in the EMA for fiscal
year 1993. These funds were primarily used for case management and home health
services. In addition, Missouri also paid $480,000 Statewide for medications for
HIV/AIDS affected patients.

The Kansas state-wide consortium uses its funds for medications, home health services
and insurance continuation. Cooperation between the States has allowed Kansas
clients in the EMA to be case managed and tracked by the same system used by
Missouri clients.

Admihktiative-LevelCoordination

Coordination between the Ryan White Titles and providers is intrinsic to the
administration of the program. Kansas City had several advantages in becoming an
EMA. Preceding the EMA were the State general fund dollars, their Title II
experience, and widespread community acceptance. Several ASOS had arisen to fill
service voids - a volunteer program, food bank and the free health clinic to serve as an
anonymous testing site. With Title I imminent, grass-roots community organizations
made a concerted effort to identi~ the numbers of clients required for funding.
The EMA made the level of coordination attained in reaching Title I status an integral
part of the way they operate. Since the planning council must reach decisions by
consensus, cooperation and coordination are important to fund activities or determine
priorities.

                            The Role of Case Management

In addition, the case management process mandates cooperation between all agencies
involved. Consequently, contact is frequent between the case managers, service
providers, the grantee, and the State. Coordination with the State of Missouri is
facilitated by the case management computer system. Titles II and IIIb case managers
also use the same case management system as Title I providers.

                         The Role of Persons with HIV/AIDS

The persons with HIV/AIDS are vital to the EMA’s decisionmaking process. As one
person with HIV/AIDS said, “they (the EMA) use us to make policy, ... (we are) not
mere window dressing.” One immediate result of including persons with HIV/AIDS in
the sub-committee process was the EMA’s funding of dental services. Prior to this
input, the consortium/steering committee process had not considered dental semices to
be a priority. By relying on persons with HIV/AIDS for substantial input and activity
in the administrative process, the HIV/AIDS community has a reason to buy into the
program. As a result, some potential turf issues are defused.




                                           19

The EMA also recognized the need for and developed a mentor program for persons
with HIV/AIDS. Cross-educating across the program, developing a base line of
knowledge, and breaking down barriers are goals of this activity. In the future, this
program will develop surveys, hold focus groups, and participate in quality assurance
procedures.

Client-levelCoordination

Case management is integral to ensuring a continuum of care and delivering services
to clients in Kansas City. A client has just one case manager, and is free to change
case managers at any time. Service decisions are made based on both the client’s
economic needs and their HIV status. Case managers use an acuity scale to
determine the appropriate extent and type of intemention needed. No services are
provided unless they are in line with the client’s needs assessment.

The EMA considers case managers to be the gatekeepers to all Ryan White and
HOPWA services in the EMA. The case managers, who are located at primary care
sites, are responsible for verifjing HIV status, determining income eligibility, and
authorizing services. Regardless of provider, case managers use identical intake,
assessment, and service authorization forms. Data from the forms is then entered into
the Missouri Department of Health case management computer system. The system
also includes EMA clients residing in Kansas, The system helps prevent duplicating
counts of clients or duplicate services, and allows for oversight of case manager
activities.

All case managers attend meetings every Thursday, so all Ryan White case managers
are present at the same time. Case managers are encouraged to develop informal
networks to discuss cases, treatment plans, and alternatives to high cost services. Case
managers also can work with the State AIDS representative to get Title II homemaker
and home health services for clients. These sessions train case managers so they can
authorize primary care, counseling, and other services. The weekly meetings are also
used to instruct case managers on the State forms and procedures.




                                           20

           LOS         ANGELES,                   CALIFORNIA


 Los Angeles EM4 Background

 Los Angeles County is one of the largest
 and most racially, ethnically and                LOS ANGELEs    Eh4A CHARACTERISTICS
 culturally diverse local jurisdictions in the
                                                      EMA population is 9 milIion
 United States. The 1990 census data
 shows 41 percent Caucasian, 37 percent               EMA is over 4,000 square miles, and
Latino, 11 percent African-American, 11               includes 88 cities
percent Asian/Pacific Islander, 1 percent
                                                      There are over 27,000 confirmed AIDS
American and Alaskan Native. One of                   cases in Los Angeles County, the 2nd
six people in the EMA lives below the                 largest Iocal caseload in the United States
Federal poverty level. One of seven
                                                      Estimated HIV/AIDS infection is 40,000
receives some form of public assistance;              to 51,000
1 of 6 is entitled to Medicaid; 1 of 3
under the age of 65 has no health                     49%of the infected population is white,
insurance.                                            28% Latino, 20% African-American, 2%
                                                      Asia@acific-Islander, and 1% American
                                                      and Alaskan Native. In 1986, the rates
In FY 1993, Los Angeles received over                 were 70% white, 1570 Latino, 14$%
$19 million in Title I funds, and $1.375              African-American, 1% Asian/Pacific-
                                                      Islander, and an unknown number of
million in Title 11monies. There are
                                                      American and Alaskan native
also five grantees in Los Angeles county
who receive $1.5 million in Title III-B               Gay/hi-sexual males comprise 72% of the
funds. Aside from Ryan White money,                   HIV/AIDS population

Los Angeles received over $80 million in              8% are injection drug users, with another
other Federal funds, the majority of                  6% combining male to male sexual activity
which came from AIDS research grants.                 with injecting drug usage
In addition, Los Angeles received more
                                                      Heterosexual transmission represents 3%
than $26 million from the State and over              of the HIV/AIDS cases
$52 million from local funds.
                                                     Method of transmission is unknown for
                                                     8% of the HIV/AIDS population
Los Angeles County is governed by a
five-member Board of Supervisors. The                As of November, 1994, there are 9,433
Board designated the Los Angeles                     living reported adult/adolescent AIDS
County Department of Health Services                 cases and 373 living reported pediatric
                                                     AIDS cases
as the entity responsible for
administering Ryan White Title I
Formula and Supplemental Grants.

The AIDS Program Office in the Department of Health Services provides staff
support to the Los Angeles County HIV Health Services Planning Council. The AIDS
Program Office also serves as the applicant and grant recipient for Title I funds and
most other governmental, non-research HIV/AIDS funding.


                                             21
l%e Los Angeles EM    PlanningCouncil

The Los Angeles County HIV Health Services Planning Council is a 42 member body
established by ordinance of the Board of Supervisors. This ordinance grants the
planning council the authority to review all HIV/AIDS programs operated by the
County and to make recommendations to the Board regarding the distribution of
funds and unmet HIV/AIDS community needs.

Services to Clzknts

Ryan White program funds have greatly enhanced the variety, quantity, and
accessibility of services to HIV/AIDS clients. New services provided by Ryan White
funding include:

         Additional community-based outpatient sites are providing services to clients.

         Transportation for Ryan White clients is one of the most important new
         services provided, given the geographic spread of Los Angeles County and
         the lack of a public transportation network.

         Translators assist a variety of monolingual clients with providers. These
         translators travel to program sites as needed to assist non-English speaking
         clients.

         Vision rehabilitation is now provided to the partially sighted.

         Self-help programs have been instituted using HIV-infected persons to
         provide peer support.

         Family support programs allow families with one or more HIV parent to
         remain intact, or promote reunification of the families.

         Household support services are available for clients.

Administrative-level
                   Coordination

The sheer size of Los Angeles County presents issues about the coordination of
services between agencies. The Los Angeles County Department of Health Services
identifies six distinct regions, each differing in needs, service availability, and
demographics. The lack of public transportation also is a constant factor to be
considered in attempting to coordinate agencies or services to clients.

Despite these drawbacks, Los Angeles EMA grantees and providers frequently come
together formally and informally to resolve common problems. Coordination between
the Ryan White Titles I and 11is simplified since the planning council serves as the
Title 11 consortium for Los Angeles County. The Title 11 staff person attends all


                                           22€
council meetings as an advisor and reports on any new developments. His office is
located at the Title I coordination site. In addition, with only one exception, the
organizations receiving Title II funds also receive Title I funds. Titles I and 11 have
recently developed common data elements for reporting purposes.

Agency members know what services are available from other providers and often do
cooperate in joint endeavors. One such endeavor is the case management computer
system that is on-line at 10 of the largest agencies in the County. Other examples of
administrative coordination include negotiating agreements with local Social Security
offices, area food pantries working cooperatively with other providers, health facilities
being willing to work with bilingual translators, and case managers from different
agencies convening monthly.

There are a variety of task forces operating in the HIV/AIDS community. In addition
to planning council task forces, individual agencies have task forces as does the AIDS
Regional Board. The networking that results from these task forces has beneficial
aspects. For example, people not on the planning council who had been involved in
task forces contribute to the work of the planning council. Also, the case management
task force is seen as a benefit by several of the case managers with whom we spoke.

While coordination between Titles I and 11is stressed, there is not the same priority to
coordinate Titles IIIb and IV. Title IIIb is funded directly by HRSA to local
organizations and is not discussed at the planning council, although IIIb agencies are
represented on the planning council, One of the planning council co-chairs is the
director of the network of agencies serving the HIV-infected pediatric population and
their families. Most respondents see Title IV as a separate service delivery system and
consequently, there is not as much coordination with the pediatric population.

Client-levelCoordination

There are many examples of client level coordination taking place in Los Angeles.
Most of these seemed to be initiated either by an individual agency or by one of the
task forces that operate on different levels in the County. The various task forces that
are ongoing on different topics provide a ready network for communicating on any
recent developments.

One example is the work initiated by the case management task force. In order to
eliminate the duplication of case managers for clients and the potential for duplication
of efforts, a computer system was created to insure that only one case manager is
working with a client. The task force has defined case management as ‘~oining with
the client to access services.” The task force meets monthly to talk about better ways
to serve their clients through referrals to other agencies or just to learn about different
ways they can be of more help. The task force is also working to establish standards
for case managers. Titles I and II have recently developed common data elements for
reporting purposes.




                                            23€
        BROWARD                    COUNTY,                   FLORIDA


BrowardCountyEM        Background

Ryan White Title I funds provide over                    BROWARD COUNTY EMA
                                                            CHARACTERETICS
$6,800,000 to the Broward County,
Florida EMA. The Office of HIV/AIDS                �    EMA population is 1.3 million
Support Services in Broward County’s
Human Services Department administers              �    Estimated HIV/AIDS infection is 17,226
Ryan White Title I as well as (HOPWA)              �    44% are between the ages of 30-39, 23%
grants from the Department of Housing                   are age 40-49, and 12% are older than 49
and Urban Development.
                                                   �    African-Americans now make up 37% of
                                                        the HIV/AIDS population, compared to
Broward County provides all the health                  30% in 1990, but comprise only 15% of
and social service programs for Ryan                    Broward County’s population. White
White clients except those funded by the                Angles represent 57% of the HIV/AIDS
                                                        population, and Hispanics 6%
State. Consequently, no
intergovernmental agreements between               �    Women comprise 17% of the HIV/AIDS
the EMA and the municipalities are                      population. Nearly 3/4 are African-
required.                                               American

                                                   �    Gay or bi-sexual males are more than half
There are 29 municipalities in the                      the HIV/AIDS population
Broward County EMA, the largest being
                                                   �    18% of the HIV/AIDS population are
the city of Fort Lauderdale. Over 10
                                                        injection drug users, with another 6%
percent of Broward County’s population                  combining male to male sexual activity
falls under the Federal poverty level.                  with injecting drug usage
There are several large concentrations of
                                                   �    Heterosexual transmission represents 6%
Haitian-Americans in Broward County.                    of the HIV/AIDS cases

The BrowardCountyEMA Pkmning                       �    Method of transmission is unknown for
council                                                 2% of the HIV/AIDS population

                                                   �    There are 5,107 living reported
Broward County’s Board of County                     adult/adokscent AIDS cases and 107
Commissioners appoints the 30 member                 living reported pediatric AIDS cases
Broward County HIV Health Services
Planning Council to serve indefinite
terms. ‘~though only these members vote on planning council issues, numerous
community representatives attend planning council meetings and participate fully in
sub-committee decisions. The planning council also solicits community participation
through efforts like conducting focus groups on specific HIV/AIDS issues, and
sponsoring an Ecumenical Conference on HIV/AIDS aimed at bringing African-
American religious leaders and clergy into the planning process.




                                             24€
Five sub-committees assist the planning council. A priorities sub-committee works on
the community needs assessment and recommends funding priorities and allocations to
the planning council. A nomination sub-committee finds and recommends new
planning council members to the county commissioners when replacements are
needed. A multi-cultural sub-committee develops strategies and implements ways to
increase minority participation in Ryan White activities. A case management study
committee developed an improved system that will provide a centralized case
management agency for all Ryan White funded case managers. A by-laws
sub-committee ensures that planning council procedures are adhered to in making
decisions.

Services to Chntr

In their 1994 application for supplemental Ryan White funds, Broward County
identified 12 priority services for their community. In order of intended outlays, their
priorities are: medical/dental treatment and diagnosis, pharmaceuticals, case
management, housing, respite child care, home health care, transportation, nutritionist
services, mental health therapy/counseling, health insurance continuation, food bank,
and holistic therapies.
                                        New Services

Ryan White funds have allowed the EMA to fund medical professionals at several
sites and also to provide many new services to clients. These new services include:

  �	      an urgent care outpatient clinic, currently providing primary medical care to
          approximately 360 patients monthly, and diverting 20 to 30 patients monthly
          from using costly emergency room services;

  �       a children’s day care center;

  �       homemaker/companion      services; and,

  �	      van transportation services to 250 unduplicated clients, and bus passes to 30
          clients.

AdhdnistrativeCoordination

Considerable coordination occurs between Titles I and II. There is some overlap in
Title I planning council membership and in the Title II consortium, the South Florida
AIDS Network of Broward County; which is made up of 88 member agencies. The
local State director and the EMA’s grant administrator meet periodically to share
program planning information. The titles share data from needs assessment studies,
provider and consumer surveys, focus group meetings and other program data. Where
both titles fund the same service, like transportation, they collaborate on standardizing
program and data reporting requirements. As a result, providers applying for funding
are not faced with different criteria for each Ryan White title.



                                            25€
Coordination with other Ryan White titles also takes place in Broward County. Title I
funds have been used to supplement the Title III(b) and Title IV providers in
Broward County, helping to ensure a continuum of care for clients served at those
sites. In addition, the Title IV director is a planning council member, active on two
sub-committees.

Another form of administrative coordination between titles takes place at a statewide
level through Florida’s annual inter-title meetings. The first inter-title meeting was
held in 1993 and included representatives from every Florida Title I EMA grantee and
the Title II representatives from those EMAs. The 1994 meeting included
representatives from all four Ryan White titles,

Client-1evelcoordination

Client-level coordination has been a major EMA concern. A major barrier to this
coordination occurs when clients have multiple case managers. No exchange of client
information takes place between agencies, making coordination of services difficult and
inefficient.

The planning council convened a special Case Management System Study Sub-
committee who studied the issue for 7 months. The sub-committee recommended that
a centralized case management agency with a case management client database be
established. Broward County EMA is in the process of choosing an agency to
administer a centralized case management services program.

This new case management agency will employ all the Ryan White Title I and
HOPWA funded case managers and implement and maintain a centralized client data
base system. The case management system will work in the following way:

An existing Broward County agency will employ and train all case managers who are
funded by Ryan White Title I and HOPWA grants. Although employed and trained
by the centralized case management agency, case managers maybe physically located
outside that site. Each client will do an intake interview with a case manager only
once. The case manager will enter all intake information onto a centralized case
management database that will be accessible to agencies in the area. For example, if
a client enters the system at a community-based medical provider, a case manager will
collect intake information and enter that information onto the client database. If that
client later goes to a food bank, the client can show the food bank proof of his or her
HIV status and the food bank can enter the client’s name into the computer and get
information. The food bank would have access only to the relevant part of that
client’s file, not all medical information. The centralized case management database
will allow a case manager to see where the client has been and prevent duplication of
services.




                                          26€
                  DETROIT,                   MICHIGAN


 DetroitE&&4Background

 The Detroit EMA is comprised of Wayne County, which includes the city of Detroit,
 and Oakland, Macomb, Lapeer, Monroe, and St. Clair Counties,

The City of Detroit Health Department
(DHD) is the Title I grantee and is also                  DETRoIT EMA CHAIUCXENSTICS
the HOPWA grantee. The DHD has
                                                      �     EMA population is 4.4 million
provided primary medical care services
to a largely indigent population for more         �	        Estimated HIV/AIDS population is
than 50 years. Their client population is                   10,600. Of these
90 percent minority. Over half of these
                                                              b      63% live in Detroit
have no health insurance; about 40                            +      15% live in Oakland County
percent are Medicaid eligible.                                b      14% live in Wayne County,
                                                                           outside of Detroit
                                                              b       6% live in Macomb County
 Widespread poverty and chronic                               b       25Z0live in Lapeer, Monroe
 unemployment in the Detroit area                                          or St. Clair Counties
 compound the EMA’s responsibilities of
                                                  Q         About 2/3 of HIV/AIDS population is
 providing primary medical care and
                                                            African-American, about 1/3 white, about
 psychosocial services to meet the needs                    3% are of Latino, Arab-Caldean, Native
 of clients living with HIV/AIDS. In                        American or Asian heritage
March of 1993, Detroit’s unemployment
                                                  �         Gay, hi-sexual males are almost half the
was 12.6 percent, nearly double the State
                                                            HfV/AIDS population
jobless rate.
                                                  �         A third or more of the HIV/AIDS
Henry Ford Hospital and the Detroit                         population are drug users

Medical Center provide primary medical            �        Women comprise more than a fifth of the
care to about 30 percent of the persons                    HIV/AIDS population; the majority are
with HIV/AIDS. Community providers,                        African-American
private physicians and the Veterans
Administration Hospitals treat another
15 percent. An estimated 6,000 people, 55 percent,         do not receive any HIV primary
care.

l%e DetroilEM    PlanningCouncil

The Southeastern Michigan HIV/AIDS Council (SEMHAC) is the Ryan White
planning council for both Titles I and II, as well as HOPWA. The SEMHAC has
been the Title 11planning council since 1989. In 1992, when Detroit became eligible
for Title I funding, SEMHAC accepted that same responsibility for Title I. The
planning council has 45 members representing the persons with HIV/AIDS, the EMA



                                            27€
counties, and 26 agencies. Titles IIIb and IV are also represented on the planning
council.

The planning council has undergone a metamorphosis. The new mayor in Detroit
brings a change of focus to the planning council. This new administration is conducive
to coordinating with the State, counties and other entities. As a result, the planning
council is looking ahead at proposals for advocacy, mental health, primary care and
emergency assistance. The planning council is also trying to solicit more input from
the people with HIV/AIDS in the community.

Servicesto Clients

In 1993, the Detroit EMA received $2.8 million from Title I, $1.5 million in Title 11
funds, $700,000 from HOPW~ and supplemental monies from Michigan Health
Initiative funds. Case management, primary care/complementary therapies,
substance abuse treatment, emergency assistance, mental health, advocacy, drug
reimbursement, housing related services, and buddy/companion services are the
EMA’s Title I priorities for 1994. The priorities are determined by the annual needs
assessment, an important component in the continuum of care.

                                                         New Services

The Title I and HOPWA subcontractors offer a diversity of services. The planning
council opted to reach out to the community providers to make sure ethnic,
geographic and service needs were met. New services include housing to women with
children, addressing a need identified as a priority by Title II, and advocacy services,
responding to needs expressed by persons with HIV/AIDS. Other new programs
funded by Title I include an approach that focuses on African-American persons who
are gay and HIV positive, and another where both persons with HIV/AIDS and
caregivers participate in support groups together.

                                              New Primary Care Network

Two respondents cited the formation of a primary care network by three hospitals to
apply jointly for funding as a major contribution to providing medical care to clients.
This coalition should mitigate the competition between these providers, result in more
coordination between the hospitals, and improve clients’ accessibility to services.




    4 The EM-4 defines case management as: “Client-centeredservice that links clienti with health care and psychosocial servicesto
iksure holy, coordinated access to medical~ appropriate levels of health care and wpport services and continui~ of care. KqY
activities include: 1) assessment of the client’s neea3 and personal support systenw; 2) development of a comprehensive, individualized
serviceplan; 3) coordination of services required to implement the plan; client monitoring to a.mx the eflcacy of the plan; and 4)
petiodic re-evaluation and adaptation of the plan as necessary.”



                                                                  28
                                   Case Mana~ement

The State of Michigan sees case management as the key that ensures that a
comprehensive continuum of care is available to persons with HIV/AIDS. The Detroit
EMA committed $1 million in Title II funds for case management. (The other
$150,000 in Title 11funds went for home and community services.) Since 1989, about
5,000 persons in the Detroit EMA have received case management services.

The two major case management agencies in Detroit receive Titles I and 11funding
for case management. These agencies recently began subcontracting some case
management activities to several other providers. All case managers are required to
coordinate all Ryan White services delivered and to record all services clients receive
on the Uniform Reporting System (URS). All subcontractors must report continuity
of care sewices via the URS.

Admimkh-ahe-i%velCoordination

Coordination among Ryan White grantees and providers occurs in several ways. First,€
the planning council maintains several standing committees. Each committee is€
responsible in some way with the coordination necessary to ensure that the continuum€
of care is delivered. Also, coordination is also facilitated by the subcontractors€
required quarterly reporting and their mandated use of the URS. The planning€
council can evaluate the extent of client level and administrative coordination by€
reviewing these submissions. In addition, the planning council is awaiting the results of€
a 240 client survey utilized by 15 persons with HIV/AIDS as interviewers. Final results€
will be available in May 1995 and should provide insight into whether coordination€
needs to be enhanced.€

                                 Provider Coordination

Beginning in 1994, the grantee advised providers applying for Title I funding that
coordination was a very important responsibility for Ryan White provider. Applicants
were told to describe how they would coordinate, and that coordination now would
account for one-fourth of the scoring of their application. Providers are required to
demonstrate this in part, by securing signed agreements of coordination with other
service providers. These agreements can lead to a referral network between providers
and their staffs.

In addition to this formal coordination, providers interact informally as well. Providers
call each other frequently or meet monthly through a community network committee
made up of 60 providers.




                                           29€
                              State Coordination Efforts

The State of Michigan also coordinates Ryan White activities in several ways. They
interact with the planning council on many activities. They fund case management,
participate in the needs assessment, and are active in resource development. The
State requires quarterly reporting from their subcontractors - the Detroit case
management agencies, and performs site visits, in part to ensure that appropriate
coordination is taking place. In May 1994, Michigan hosted their first Statewide
continuum of care conference, attended by the spectrum of Ryan White providers and
administrators. In October 1994, Michigan held a 2 day consortia training, attended
by all consortia regions.

Cli&nt-level
           Coordination

In the Detroit Eh@ coordination begins with case management. Every 2 weeks, case
managers meet to discuss cases, exchange information on providers and services
offered, and ensure that services are being coordinated. This network increases
resources and access for clients. At the same time it lessens opportunities for clients
to abuse the system.

Both of the large case management agencies, AIDS Care Connection and AIDS
Consortium of Southeast Michigan (ACSEM), hold weekly in-house case conferences.
At these sessions, questions are answered and expertise is shared among staff. At
least monthly, ACSEM includes a service provider participate in their meetings.




                                          30

